IN THE
SUPREME COURT OF THE UNITED STATES
No. __

JERRY W. GREEN, JR.,

Petitioner
v.

UNITED STATES OF AMERICA,
Respondent
CERTIFICATE OF SERVICE

I hereby certify that on this 26th day of April, 2021, as required by Supreme
Court Rule 29, I have served the enclosed the PETITION FOR A WRIT OF
CERTIORARI and MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS on
each party to the above proceeding or that party’s counsel by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid.

The names and addresses of those served are as follows:

Solicitor General of the United States

Room 5616, Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Respectfully Submitted on this 26th day of April 2021,

hue he Le

ANNE F. BORGHETTI,
12211 49th St. N., Ste,
Clearwater, FL 33762
Florida Bar # 0843385

Telephone: 727-502-0300
Facsimile: 727-502-0303

 
  

fe

Counsel of Record tor Petitioner
